                                          UNCLASSIFIED




                EXECUTIVE SUMMARY


Review of Selected Internal Investigations
 Conducted by the Bureau of Diplomatic
          Security (ESP-14-01)




   OFFICE OF EVALUATIONS AND SPECIAL PROJECTS

   This is an Unclassified Executive Summary of the Sensitive But Unclassified (SBU) report provided
                                to Congress and the Department of State.




                                          UNCLASSIFIED
                                                  1
                                                       UNCLASSIFIED




 REVIEW OF SELECTED INTERNAL INVESTIGATIONS CONDUCTED
     BY THE BUREAU OF DIPLOMATIC SECURITY (ESP-14-01)
              This is an Unclassified Executive Summary of the Sensitive But Unclassified (SBU) report provided
                                          to Congress and the Department of State.


This review arose out of a 2012 OIG inspection of the                 U.S. Ambassador
Department of State (Department) Bureau of Diplomatic                 The Foreign Affairs Manual (FAM) provides that disciplin-
Security (DS). At that time, OIG inspectors were informed of          ary action may be taken against persons who engage in
allegations of undue influence and favoritism related to the          behavior, such as soliciting prostitutes, that would cause
handling of a number of internal investigations by the DS             the U.S. Government to be held in opprobrium were it to
internal investigations unit. The allegations initially related       become public.1
to eight, high-profile, internal investigations.
                                                                      In May 2011, DS was alerted to suspicions by the secu-
This review assesses the Department’s handling of those               rity staff at a U.S. embassy that the U.S. Ambassador
eight investigations. OIG did not reinvestigate the under-            solicited a prostitute in a public park near the embassy.
lying cases. In conducting this review, OIG interviewed               DS assigned an agent from its internal investigations unit
Department employees, examined case files, and reviewed               to conduct a preliminary inquiry. However, 2 days later,
19,000 emails culled from the Department’s electronic                 the agent was directed to stop further inquiry because
communications network. OIG’s findings are not necessarily            of a decision by senior Department officials to treat the
indicative of systemic issues affecting all DS cases. However,        matter as a “management issue.” The Ambassador was
they reveal issues with current Department policies and               recalled to Washington and, in June 2011, met with the
procedures that may have significant implications regard-             Under Secretary of State for Management and the then
ing actual or perceived undue influence.                              Chief of Staff and Counselor to the Secretary of State. At
                                                                      the meeting, the Ambassador denied the allegations and
Appearance of Undue Influence and                                     was then permitted to return to post. The Department
Favoritism in Three Cases                                             took no further action affecting the Ambassador.

In three of the eight internal investigations, OIG found that         OIG found that, based on the limited evidence collected
a combination of factors in each case created an appear-              by DS, the suspected misconduct by the Ambassador
ance of undue influence and favoritism by Department                  was not substantiated. DS management told OIG, in
management. The appearance of undue influence and                     2013, that the preliminary inquiry was appropriately
favoritism is problematic because it risks undermining confi-         halted because no further investigation was possible.
dence in the integrity of the Department and its leaders.             OIG concluded, however, that additional evidence,




1	 3 FAM 4139.14 (Notoriously Disgraceful Conduct).



                                                       UNCLASSIFIED
                                                                  1
                                                                 UNCLASSIFIED



confirming or refuting the suspected misconduct,                               on another FAM disciplinary provision applicable to
could have been collected. For example, before the                             lower-ranking employees. The provision permits treating
preliminary inquiry was halted, only one of multiple                           misconduct allegations as a “management issue” when
potential witnesses on the embassy’s security staff had                        they are “relatively minor.”4 DS managers told OIG that
been interviewed. Additionally, DS never interviewed the                       they considered the allegations “relatively minor” and not
Ambassador and did not follow its usual investigative                          involving criminal violations.
protocol of assigning an investigative case number to the
matter or opening and keeping investigative case files.                        Office of the Legal Adviser staff told OIG that the FAM’s
                                                                               disciplinary provisions do not apply to Ambassadors who,
Department officials offered different justifications for                      as in this instance, are political appointees and are not
handling the matter as a “management issue,” and they                          members of the Foreign Service or the Civil Service.5
did not create or retain any record to justify their handling
of it in that manner. In addition, OIG did not discover                        OIG questions the differing justifications offered and
any guidance on what factors should be considered, or                          recommends that the Department promulgate clear and
processes should be followed, in making a “management                          consistent protocols and procedures for the handling of
issue” determination, nor did OIG discover any records                         allegations involving misconduct by Chiefs of Mission and
documenting management’s handling of the matter once                           other senior officials. Doing so should minimize the risk
the determination was made.                                                    of (1) actual or perceived undue influence and favoritism
                                                                               and (2) disparate treatment between higher and lower-
The Under Secretary of State for Management told OIG                           ranking officials suspected of misconduct.6 In addition,
that he decided to handle the suspected incident as a                          OIG concludes that the Under Secretary’s application
“management issue” based on a disciplinary provision                           of the “exceptional circumstances” provision to remove
in the FAM that he had employed on prior occasions                             matters from DS and OIG review could impair OIG’s
to address allegations of misconduct by Chiefs of                              independence and unduly limit DS’s and OIG’s abilities to
Mission. The provision, applicable to Chiefs of Mission                        investigate alleged misconduct by Chiefs of Mission and
and other senior officials, states that when “exceptional                      other senior Department officials.
circumstances” exist, the Under Secretary need not
refer the suspected misconduct to OIG or DS for further                        DS Manager
investigation (as is otherwise required).2 In this instance,                   The second DS internal investigation in which OIG
the Under Secretary cited as “exceptional circumstances”                       found an appearance of undue influence and favoritism
the fact that the Ambassador worked overseas.3                                 concerned a DS Regional Security Officer (RSO) posted
                                                                               overseas, who, in 2011, allegedly engaged in sexual
DS managers told OIG that they viewed the Ambassador’s                         misconduct and harassment. DS commenced an internal
suspected misconduct as a “management issue” based                             investigation of those allegations in September 2011.



2	 3 FAM 4322.2 states that incidents or allegations involving Chiefs of Mission that could serve as grounds for disciplinary action and/or
   criminal action must be immediately referred to OIG or DS to investigate. This section further states that “[i]n exceptional circumstances, the
   Under Secretary for Management…may designate an individual or individuals to conduct the investigation.” No guidance exists describing
   what factors to consider in determining what constitutes “exceptional circumstances.”
3	 In the SBU report provided to Congress and the Department, OIG cited an additional factor considered by the Under Secretary—namely, that
   the Ambassador’s suspected misconduct (solicitation of prostitution) was not a crime in the host country. However, after the SBU report was
   issued, the Under Secretary advised OIG that that factor did not affect his decision to treat the matter as a “management issue” and that he
   cited it in a different context. This does not change any of OIG’s findings or conclusions in this matter.
4	 3 FAM 4322.3.a provides that a management official “must initially determine whether he, she, or another management official should be the
   investigating official, or whether the matter should be referred to” OIG or DS for further action. This section further provides that if the official
   determines that the “alleged misconduct is relatively minor, such as leave abuse or failure to perform assigned duties, that official or another
   management official may handle the administrative inquiry” and need not refer the matter to OIG or DS.
5	 After the SBU report was issued, the Under Secretary of State for Management advised OIG that he disagrees with the Office of the Legal
   Adviser interpretation, citing the provisions in the Foreign Service Act of 1980 which designate Chiefs of Mission appointed by the President
   as members of the Foreign Service. See Foreign Service Act of 1980, §§ 103(1) & 302(a)(1) (22 USC §§ 3903(1) & 3942(a)(1)).
6	 During the course of this review, OIG discovered some evidence of disparity in DS’s handling of allegations involving prostitution. Between
   2009 and 2011, DS investigated 13 prostitution-related cases involving lower-ranking officials. OIG found no evidence that any of those
   inquiries were halted and treated as “management issues.”



                                                                 UNCLASSIFIED
                                                                           2
                                                                UNCLASSIFIED



However, at the time the investigation began, the RSO                         2014, approximately 3 years after DS initially learned of
already had a long history of similar misconduct allega-                      the 2011 allegations.
tions dating back 10 years at seven other posts where he
worked. A 2006 DS investigation involving similar alleged                     Nominee To be U.S. Ambassador
misconduct led to the RSO’s suspension for 5 days.                            The third DS internal investigation in which OIG found an
                                                                              appearance of undue influence and favoritism involved
OIG found that there was undue delay within the                               the unauthorized release in mid-2012 of internal Depart-
Department in adequately addressing the 2011                                  ment communications from 2008 concerning an indi-
misconduct allegations and that the alleged incidents                         vidual who was nominated in early-2012 to serve as a
of similar misconduct prior to 2011 were not timely                           U.S. Ambassador. (The nominee’s name was withdrawn
reported to appropriate Department officials.7 OIG also                       following the unauthorized release.) DS commenced an
found that, notwithstanding the serious nature of the                         internal investigation related to the unauthorized release
alleged misconduct, the Department never attempted to                         of the internal communications. The then Chief of Staff
remove the RSO from Department work environments                              and Counselor to the Secretary of State was alleged to
where the RSO could potentially harm other employees,                         have unduly influenced that investigation.
an option available under the FAM.8 Notably, the DS
agents investigating the 2011 allegations reported to DS                      OIG found no evidence of any undue influence by the
management, in October 2011, that they had gathered                           Chief of Staff/Counselor. However, OIG did find that the
“overwhelming evidence” of the RSO’s culpability.                             Assistant Secretary of State in charge of DS had delayed
                                                                              for 4 months, without adequate justification, DS’s inter-
The agents also encountered resistance from senior                            view of the nominee, and that delay brought the investi-
Department and DS managers as they continued to                               gation to a temporary standstill. OIG concluded that the
investigate the RSO’s suspected misconduct in 2011.                           delay created the appearance of undue influence and
OIG found that the managers in question had personal                          favoritism. The case was ultimately closed in July 2013,
relationships with the RSO. For instance, the agents were                     after the nominee was interviewed and after DS conduct-
directed to interview another DS manager who was a                            ed additional investigative work.
friend of the RSO, and who was the official responsible
for selecting the agents’ work assignments. During the                        No Undue Influence or Favoritism
interview, the manager acted in a manner the agents                           in Four Cases	
believed was meant to intimidate them. OIG also found
that Department and DS managers had described the                             OIG did not find evidence of perceived or actual undue
agents’ investigation as a “witch hunt,” unfairly focused                     influence or favoritism in four of the DS internal investi-
on the RSO. Even though OIG did not find evidence                             gations reviewed, and, in two of those four, determined
of actual retaliation against the investigating agents,                       that no further discussion was warranted. However, two
OIG concluded that these circumstances, including the                         cases are discussed further in this review because OIG
undue delay, created an appearance of undue influence                         found one common issue in both cases that requires
and favoritism concerning DS’s investigation and the                          remedial action—the failure to promptly report alleged
Department’s handling of the matter.                                          misconduct to the DS internal investigations unit for
                                                                              further review.
Ultimately, in November 2013, based on evidence
collected by DS and the Department’s Office of Civil                          •	 Three DS special agents allegedly solicited prostitutes
Rights, the Department commenced termination of                                  in 2010 while serving on the security detail for the
employment proceedings against the RSO. The RSO’s                                Secretary of State. Although managers on the security
employment in the Department did not end until mid-                              detail learned of some of the alleged misconduct at




7	 3 FAM 1525.2-1.a provides that the Department must “take the necessary steps to ensure that” sexual assault and harassment allegations are
  “promptly investigated and addressed.” 3 FAM 1525.2-1.c further states that “[f]ailure to report such incidents to [the Office of Civil Rights] will
  be considered a violation of this policy and may result in disciplinary action.”
8	 3 FAM 4323.a states that “[a]t any time during the course of an administrative inquiry or disciplinary action, a management official may decide
  to exclude the employee from all or a part of the official premises based on a reasonable belief that the employee’s continued presence in the
  workplace may pose a threat to the employee or to others.”



                                                                UNCLASSIFIED
                                                                          3
                                                            UNCLASSIFIED



     or near the time it occurred, they did not notify the                    One Review Ongoing
     DS internal investigations unit, which normally handles
     such matters. A DS internal investigations agent only                    The eighth DS internal investigation reviewed by OIG
     learned about the three cases while conducting an                        concerned the use of deadly force during three inci-
     unrelated investigation. As a result, no action was                      dents that took place during counternarcotics opera-
     taken to investigate the misconduct allegations until                    tions in Honduras in 2012. OIG has commenced a
     October 2011, 18 months after the first alleged solici-                  joint review with the U.S. Department of Justice, Office
     tation occurred. As a result of the investigation then                   of the Inspector General. The investigation remains
     conducted, the three agents were removed from the                        under review, and OIG will issue a separate report on
     Secretary’s security detail, and their cases were referred               the matter.
     for further disciplinary action. One agent subsequently
     resigned; the allegations against the other two agents                   OIG Recommendations
     were not sustained.9
                                                                              OIG recommends two actions:
 •	 A DS special agent who worked in a domestic field
    office allegedly falsified time and attendance records                    1.	 The Department should take steps (as previously
    over a 17-month period between January 2011 and                               recommended in OIG’s report on the 2012
    May 2012. DS management in the domestic field                                 inspection (ISP-I-13-18)), to enhance the
    office knew about the allegations but did not promptly                        integrity of DS’s internal investigations process
    report them to the DS internal investigations unit. In                        by implementing safeguards to prevent the
    May 2012, during the course of an unrelated investi-                          appearance of, or actual, undue influence and
    gation involving the DS special agent, the DS internal                        favoritism by Department officials.
    investigations unit learned of the allegations of false
    time and attendance reporting. An internal investiga-                     2.	 The Department should clarify and revise the
    tion was then commenced, and the DS special agent                             Foreign Affairs Manual and should promulgate and
    subsequently resigned. DS also referred the matter to                         implement additional protocols and procedures,
    the Department of Justice, which declined prosecution                         in order to ensure that allegations of misconduct
    of the case.                                                                  concerning Chiefs of Mission and other senior
                                                                                  Department officials are handled fairly, consistently,
                                                                                  and independently.

                                                                              These recommendations remain open and unresolved.




9	 In the SBU report provided to Congress and the Department, OIG noted that one agent subsequently resigned; the allegations against a
   second agent were not sustained; and the third agent had initiated a grievance proceeding, which was pending, challenging the discipline
   determination. However, after the SBU report was issued, the Department advised OIG that the third agent’s grievance proceeding was
   resolved with a finding by the Foreign Service Grievance Board not sustaining the charges.



                                                            UNCLASSIFIED
                                                                      4
